No.

 

 

IN THE

Supreme Court of the United States

CHAREE STANLEY,

Petitioner,
v.

EXPRESSJET AIRLINES, INC.,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,711 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 12, 2020.

 

Colin Casey Nogan
Wilson-Epes Printing Co., Inc.
